U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Immunex Corporation v. Sanofi-Aventis U.S. LLC, et al,
S.Ct. No. 20-1285
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 11,
2021, and placed on the docket on March 16, 2021. The government’s response is due on April
15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May17, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1285
IMMUNEX CORPORATION
SANOFI-AVENTIS U.S. LLC, ET AL.

ELDORA LYNN ELLISON
STERNE, KESSLER, GOLDSTEIN & FOX PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-772-8508
EELLISON@STERNEKESSLER.COM

